                             NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




                                      16 November 1999
    OFFICE OF
INSPECTOR GENERAL


  MEMORANDUM TO:                        The File


  CASE:                                 1-99050009


  SUBJECT:

                                       ~ i r e c t o r afor
                                                         t~




  1. On 12 April 1999 this office received information from
     alleging that-was           publicly "smearing" him.     m        alleged tha&       as
     using his NSF computer, fax machine, and Internet access to obtain publicly-
     available information regardin-s               military records. h      e      n placed
     the information he received on car windshields at the Veterans of Foreign Wars
     (VFW) Post in               MD, where-an-e                       members.

 2.
 j -                    documents to the OIG which he retrieved from the car
    windshields at the VFW. These documents included, in part, three letters from-
    to various Department of Defense components. All three letters provide-




                            -
    home address and two list his NSF e-mail address. The third letter appears to have
    been faxed fiom an NSF fax machine.

 3. On 26 July 1999, this information was referred to the Employee Relations Branch,
    IRMIHRM.

 4. On 2 November 1999,               Chief, IRM/HRM advised that they would not
    take disciplinary action against m
                             NATIONAL SCIENCE FOUNDATION
                                 4201 WILSON BOULEVARD
                                ARLINGTON, VIRGINIA 22230




                                          26 July 1999
    OFFICE OF
INSPECTOR GENERAL



  MEMORANDUM:                  The File

  CASE:

  SUBJECT:


  1. On 26 July 1999, the information developed in this investigation was referred to the
     Employee Relations Branch for their action. Our referral requested that they notify
     this office of any action taken.

 2. This investigation is closed. The case file will be updated pending receipt of any
    action taken by IRMIHRM.
